                          INSPECTION OF


                    INAPPROPRIATE DISCHARGES
                               AND
                            TRANSFERS




                       RICHARD P. KUSSEROW

                        INSPECTOR GENERAL





Inspection Prepared By:                 with Assistance By:


Lead Region:                            Headquarters:
William Moran                           David Hsia, M.
Natalie Coen                            Barton McCann, M.
Kitty Ahern                             Barry Steeley
Donald Kuhl
Margaret Shell                          Regions:
John Traczyk

Joe penkrot                             Lucille Cop - II

Terry Quirk                             Renee Schlesinger - II

                                        Bill Young - III

                                        Kathy Admire - IX

                                        Paul Got tlober - IX


Office of Analysis &    Inspections                March, 1986
Region V
300 So. Wacker Drive
26th Floor
Chicago, IL 60606
OAlt   P-OS-86-000S0
                MAJOR FINDINGS



Based on the findings of        this inspection,      it
apparent that occurrences of premature discharges and
inappropriate transfers do exist and must continue to
be addressed aggressively by the Health Care Financing
Administration (HCFA)     and the Peer Review   Organiza­
tions (PROs).
During 10/1/83 - 5/31/85, HCFA reported 4, 724 cases
of premature discharges and inappropr iate transfers.
Yet,  only 2, 688 (57%) of the reported cases could
actually be-found.  This is due to the phasing out of
the Medical Review    Entities (MREs) , inconsistent
instructions given by HCFA, and inaccurate reporting
by the PROs. Another 1, 018 cases were reviewed, of
which 282 were reported after 5/31/85 and 736 had
never been reported (See chart on page 9.     Also,
during the time frames mentioned above, 14 (30%) of
the PROs were not reporting premature discharges or
inappropr iate  transfers. Therefore, the     overall
extent of the problem is still not fully known.

Of the 3, 706 cases reviewed, 3, 336 (90%) were
referred by the PROs; 370 (10%) were referred prior
to PRO implementation- One hundred and fifty-seven
(4%) of the 3, 706 cases were not inappropriate
discharges or transfers. Of the remaining 3, 549
cases, 2, 907 (82%) were premature discharges, 491
(14%) were inappropriate transfers, and 151 ( 4%)
could not be categorized by type.
Quality issues ranging from very minor to gross and
flagrant were identif ied   by the PROs in 2, 146   (60%) of
the 3, 549 cases. PRO disposition of         these
                                                cases
ranged from intensified review of identified hospi­
tals and physicians to no action being taken at         all.
In  927 (43%) of    the
                      cases with identified quality
issues the only apparent action taken by the PRO was
referral to HCFA.

Of the cases reviewed, medical records involving 133
patients were referred to OIG physician consultants
for review.   Nineteen were classified by OIG con­
sultants as exhibiting gross and flagrant instances
of substandard care. PROs took no corrective action,
other than referral to HCFA, on 12 of these 19 cases.
In  the opinion of the OIG medical consultants,
inappropriate actions were taken on 106" of the 133
cases. Thirty- eight of these cases have been
returned directly to the PROs for various recommended

actions. The remaining     cases    are currently    being
reviewed by HCFA.

PROs did have the authority to       take action on the
quali ty issues identif ied in   this study. It appears
that many PROs have not effectively used the authori­
ties or the processes available to address instances
of poor quality care associated with premature
discharges and inappropriate transfers.

During OIG site     visits conducted      in September and

December, 1985, problems were noted  with the PRO'
accumulation of     data
                      pertaining to        the
                                          quality of
care rendered by physicians and hospitals. This data
is necessary for the identification of abusive pat­
terns and subsequent corrective    action.
HCFA has reviewed the recommendations contained
this report and concurs. It has already begun to
                                                   in
correct a number of problems identified        the
inspection. Details  regarding HCFA' s actions can be
found in the appendix attached to this
increased sanction     activity by    thereport.Also,
                                          PROs against
physicians/providers demonstrating abusive patterns
of practice has been recently    noted.
                        T ABLE OF CONTENTS


                                                   PAGE

       PURPOSE AND METHODOLOGY


II.	   OVERVIEW

III. CASE RECONCILIATION


IV.	   CATEGORIZING CASES AND DOCUMENTING
       DISPOSITIONS
       MECHANISMS TO ADDRESS CASES OF PREMATURE

       DISCHARGE AND INAPPROPRIATE TRANSFER


VI.	   RECOMMNDATIONS

VII. APPENDIX

Purpose and Methodology


At the request      the Inspector General, a national
                        of
program inspection was conducted of identified instances

of premature discharges and inappropriate transfers
occurring under Medicare             Prospective Payment System
( PPS ) .

The objectives of this inspection were       to:
1 )	     Determine the number of       premature discharges
                                                         and
         inappropriate transfers referred to the Health Care

         Financing Administration (HCFA       by medical review
         enti ties (MREs ),  fiscalintermediar ies (FIs ), and
         Peer Review Organizations (PROs) from 10/1/83 through

         5/31/85 ;
2 )	     Categor i ze the cases and document their disposition;

3 )	     Review the appropriateness of corrective action on
         cases where the PRO, MRE or FI, through its review

         process, identif ied potentially grossand flagrant or
         substantive instances of substandard care; and


4 )	     Examine the procedures and instructions       pertaining
         to the identif ication   and disposition of these cases.
This inspection         was not meant to determine the overall
effect of PPS         on quality  of care rendered to Medicare
benef ic iar ies     nor was it des igned to determine the fre­
quency of inappropr iate discharges and transfers occurr ing
wi     thin the
            PPS system. It focused only on instances of
inappropriate discharges and transfers as they were iden­
tif iedby the PROs through review mechanisms extant at the
time.  The broader issue of quality of care will be more
fully addressed in other reports, particularly those to be
issued by the Inspector General, HCFA, and the Assistant
Secretary for Planning and Evaluation (ASPE).
According to HCFA, 4, 724 cases of premature discharges and
inappropriate transfers were referred to the HCFA regional
offices  between 10/1/83 and         5/31/85 by
                                            various medical
review entities, including 33 of the 47 PROs located in
non-waiver PPS states. The actual referrals were kept in
the HCFA regional offices, excluding the New York region
where all states are exempt from PPS. Off ice of Inspector
General (OIG) teams went to            the nine
                                           remaining HCFA
regions to gather identifying information on the referral
cases.  During September and December, 1985, onsite visits
were also conducted at 19 of the 33 PROs to record what
actions were taken by them on cases with identif              ied
quali ty of care       issues. The remaining      14 PROs who had
Page No.



       referred to HCFA minimal numbers of cases were contacted
       by the HCFA Project Off icers to ascertain the disposition
       of those cases.   In all instances, the data gathered was
       what was documented in the PRO' s case file. If corrective
       action was taken on cases       but   not documented  in the
       material available to the reviewer, it was not   recorded.
       Discussions focusing on premature discharges and
       inappropriate transfers and HCFA instructions regarding
       these cases were conducted with HCFA' s Central Off ice, the
       nine regional off ices, all 47 PROs, and 15 state hospital
       associations.  National associations such as the Amer ican
       Medical Association (AM), American Hospital Association
       (AHA), American Peer Review Association (AMPRA), and
                             Retired Persons (AARP) were also
       Amer ican Association of
       contacted.
              ...                                  .....;

                                                . ...;


Page No.



II.    Overview

       In March, 1983, Congress passed legislation requiring a new
       system for reimbursing Medicare inpatient hospital stays.
       Implementation of the Prospective Payment System began on
       October 1, 1983, and by October 1, 1984, all non- exempt
       hospitals  servicing Medicare inpatients were being paid
       based on 46 diagnostic related groups i DRGs) . DRGs cate­
       gorize patient stays based on principal and secondary
       diagnoses and surgical procedures.


       Consistent with        the new     era of competition and sound
       financial practices pervading the private sector of health
       care, Congress built into Medicare s Prospective Payment
       System economic incentives to curb escalating costs and
       prevent overutilization of inpatient stays. PPS encoura­
       ges the use of   outpatient facilities. It rewards hospi­
       tals that provide efficient care by allowing them to keep
       the    dollar differences between their actual operating
       costs and Medicare s DRG payment.


       While the intent of Congress was to reduce health care
       costs, it was also concerned that the quality of health
       care not suffer under this new          system.
                                                To ensure the
       integr i ty    of PPS and to maintain the high quality of care
       afforded patients under the           cost reimbursement system,
       Congress established and provided funding for Peer Review
       Organizations. The 54 PROs under contract with HCFA are
       located in each state, territory, and the District
       Columbia. (Forty-seven PROs operate in non-waiver PPS
       states.        They are responsible for determining:

       1 )	   whether the services provided or proposed are reaso­
              nable and medically necessary for the diagnosis and
              treatment of illness or injury
       2 )	   whether services could                  be effectively fur­
              nished on an outpatient basis

       3)     the medical necessity, reasonableness, and
              appropriateness of hospital admissions
                                                                       the
                                                                       and
              discharges;
       4)           appropr iateness
              which additional
                                        of inpatient
                                       payment is
                                                     hospital care for
                                                  sought under outlier
              provisions;
                                         ...;



Page No.



       5 )	   whether a hospital has misrepresented admission or
              discharge information or has taken an action that
              results in unnecessary admission unnecessary
              multiple admissions ... or other inappropriate medi­
              cal   or other practices

       6 )	   the validity of diagnostic and procedural information
              supplied by the provider;
       7 )	   the completeness, adequacy,        and quality of   hospital
              care prov ided; and

       8 )	   whether the quality of services meets professionally
              recognized standards of health care.

              (Peer Review Organization Manual, 1M 2001.



       Congress gave them authority to deny payment for
       To assist the PROs in carrying out their responsibilities,


       inappropriate services, to take corrective actions as
       necessary and to sanction physicians and hospitals pro­
       viding poor quality care, or attempting to circumvent the
       new system.
       Between October, 1983, and October, 1984, MREs and Fls
       were responsible for handling quality of care issues as
       PPS was being implemented. By October, 1984, all non­
       exempt hospitals were being reimbursed by Medicare under
       PPS, and almost all of the 54 PROs were        operational.
       As the PROs became operational, they began encountering
       si tuations that involved premature discharges and
       inappropr iate    transfers.
                                 Either of these situations could
       indicate a hospital and/or a physician attempting to cir­
       cumvent or " game "   the system.

       Premature Discharges/Inappropriate Transfers


       A premature discharge is the release of a patient who 

       still in need of acute hospital           care. If the
                                                         patient
       returns to the hospital, the hospital receives a second
       DRG payment. If the patient does not return to the hospi­

       tal, the hospital
       expended less   of  still
                           its   benefits financially by having
                               resources   thanwould have been
       expended had the patient stayed until acute level care was

       no longer required.
Pag   No.



        An inappropriate transfer is the transfer of a patient,
        for no   discernable    reason,
                                      from       an acute
                                                      hospital to
        another acute hospital or from an acute hospital to an
        exempt n n-PPS unit (e.g. rehabilitation, psychiatric, and
        alcohol/drug treatment units). The Medicare program suf­
        fers financially when patients are inappropriately trans­
        ferred back and forth because each facility involved
        receives reimbursements either through DRGs, per diem
        payment, or on a cost basis.

        MREs, Fls  and subsequently PROs were required to review
        all readmissions to a hospital wi thin seven days, and all
        patient transfers. Instructions regarding the iden­
        tif ication and   processing of these cases were contained in
        HCFA' s Transmittal 107 issued in November, 1983, and are
        now incorporated into       the PRO    manual.    These initial
        instructions dealt only with cases that were determined to
        be medically unnecessary      stays or medically     unnecessary
        transfers. If the     care rendered during the readmission or
        following the transfer was determined to be unneces­
        sary, denial of the second stay could be made. If a pat­
        tern   of   unnecessary admissions           or
                                                   transfers was
        identif ied, development of a sanction recommendation was
        to be initiated if violations of Section 1156 of the
        Social Security Act were in      evidence.
        Falling outside of the scope of the initial instructions
        issued by HCFA were instances of premature discharges and
        inappropriate transfers where the resulting stay was medi­
        cally necessary,      or   the reason  for transfer was not
                                           necessary.
        apparent, although the care was
        These cases were to be referred into the HCFA regional
        offices for analysis, pending a Departmental legal deci­
        sion regarding how to implement the authorities under
        Section 1886 ( f) (2) of the Social Security Act, which
        authorizes PROs to deny stays and initiate sanction action
        in instances
        vented. It was
                          where PPS is   being manipulated   or
                       assumed by HCFA that the PROs would handle
                                                                  circum­
        any quality issues associated with these cases in accor­
        dance with PRO authorities and        procedures.
                                                     These provide
        for educational contacts, intensif ied review and ul tima­
        tely sanction of providers if violations of Section 1156
        are identified.
        In July, 1985, HCFA issued Transmittal 5, which instructed
        the PROs    to    deny payment   in   certain circumstances for
Page No.



       readmissions resulting from premature discharges and for
       inappropr iate transfers, and to initiate sanction develop­

       ment based on prescribed criteria.
Page No.



III.   Case Reconciliation
                                   premature discharge and inappropriate
                                              by the HCFA regional
                             724

                  transfer referrals reported5/31/85,
                  Of the



                  offices from 10/1/83 through        2, 688 (57%) of
                  the cases could be located.


                  Of the referral cases, 2, 165 were reported by HCFA to

                  be MRE/FI referrals    and 2, 559 were PRO referrals.
                  Seventeen percent   (370)  of the MRE/FI referrals and
                  91% (2, 318) of the  PRO referrals were located during
                  this study.

                  In addition, 282 cases referred after 5/31/85 were
                           and 736 cases that were never referred
                  reviewed
                  were identified and categorized.


                  In all a total of 3, 706   cases were reviewed, 3, 549 of
                  which were categorized as premature discharges and
                  inappropriate transfers.
       To put         these numbers in perspective,through
                                                    it should be noted
       that          from implementation of PPS var
       MREs/FlS and PROs reviewed,      for a
                                                            May, 1985,
                                                       iety of reasons,
       approximately 2. 1 million cases.   The 4, 724 referrals made
       to
       345,
            HCFA were
            700  cases
                      contained
                        which
                                  in
                               were
                                      a  universe
                                    targeted   for  of approximately
                                                     review because
           there were two admissions wi thin     a seven day period or the
           patient was     transferred. Identified premature discharges
                                               referred to HCFA by the
           and inappropriate transfer cases
           PROs account for approximately 1. 4% of this specif ic uni­
           verse.
           However, because of inconsistencies, inaccuracies and non-

           reporting, any broad conclusions     regarding premature
           discharges and inapppropr iate transfers, based on these
           figures, would be unfair and inaccurate. Also, the 1. 4%
           excludes cases where the discharge,          while premature, did
           not result in a   readmission; the           readmission occurred
           after seven days; or the readmission was at another hospi­
           tal.
           It was anticipated that the referrals made prior to PRO
                                                       to
           implementation might be               locate, and indeed
                                         diff icul t
           only 370 (17%) of the     165 MRE/FI referrals could be
           found. It appears that  most of the case information was
           destroyed or warehoused        by the
                                            MREs/Fls when the PROs
           became operational.
Page No.



       In a few regions PRO referrals were also hard to            find.
       In some  instances, case summaries supporting the actual
       numbers reported on the monthly HCFA-5l6s, the designated
       HCFA form    for report ng premature discharges and
       inappropr iate transfers, could not be located or the iden­

       tifying information on the referrals    was       not
                                                         complete
       enough to associate it with a HCFA-5l6. This made cate­
       gorization Of those cases impossible. , On- site visits to
       the PROs became    more   diff icul t   because the PROs were
       required to locate the referral cases without identifying
       information and then document action on quality issues.
       Because of  this  confusion, 282 cases referred into HCFA
       after 5/31/85 were categorized, as well as 736 cases that

       were ' found on-site at PROs that had never been referred.
       In  all a total
       inspection.

                          of 3, 706 cases were reviewed in this

       Explanations for   the diff icul ty     in finding the   referral

       cases varied. HCFA, in       issuing instructionsregarding
       these referrals, did not stipulate a format or the type of
       information that should be contained in the referrals.
       The regional offices did not give uniform instructions to
       PROs regarding these referrals. Some regions indicated
       they wanted only the number counts, while         others
                                                           issued
       explici t instructions on what to send in, including cases
       involving quality issues or anything that was of a sen­
       sitive nature.

       Due to the inconsistency of the instructions the PROs were
       confused regarding their reporting responsibilities. This
       is evidenced by the disparity in the number of cases
                    all.
       reported by each PRO and in the 30% of PROs who referred
       no cases at
       between the number of
                            There is also no direct relationship
                                 cases referred,Medicare hospital
       utilization within the state, or review activity by the
       PROs. In   addition, of the cases that were located and
                 157
       identif ied,       (4%) were inappropriate PRO referrals
       that didnot    involve premature discharges or transfers.
       The chart on page nine indicates total referrals reported
       on the HCFA- 5l6s, and case summaries actually located.
       The lack of referrals and inconsistent referral rates can
       be attributed to systems problems experienced by Fls and


       PROs.
       PROs in identifying these cases; unclear, misunderstood,
       or  disregarded instructions; duplicate counts; amended
       HCFA-s16 reports;    and conf identiali     ty concerns by    the
Page No.



       Of the 3, 706 cases reviewed, 3, 336 (90%)were referred in
       by PROs, 208 (6%) by MREs, and 162 (4%) by Fls.
       Eliminating the inappropriate referrals reduces the case
       count to 3,  549. Itis these 3, 549 cases which are
       discussed in the body of this report.




                            CASE RECONCILIATION



       CASES REPORTED BY HCFA

       10/1/83 -                         CASES      PERCENT
       5/31/85                           FOUND      FOUND

       MREs/Fls    2165                   370          17%


       PROs        2559                  2318          91%


       TOTAL       4724                  2688          57%


       CASES REPORTED AFTER
       5/31/85                            282

       CASES NOT REPORTED                 736

       TOTAL CASES FOUND                 3706

       LESS ERRONEOUS REFERRALS           157


                   TOTAL                3549
Page No. 10





IV.     Categorizing Cases and Documenti.ng Dispositions

               Of the 3, 549   cases   reviewed, 2, 907 (82%)   were iden­
               tif ied as being premature discharges, 491 (14%) were
               inappropriate transfers and 151 (4%) could not be
               categorized by type because of insufficient infor­
               mation.

               Of these   cases, 2,    146
                                         (60%)      were    identif ied

               quality issues by the PROs.
               In 927 (43%) of the cases where quality
               identified, the only apparent actionissues were

                                                    taken was
               referral to the HCFA regional     offices.
               Of the cases with apparent quality issues, 133
               patients ' records were referred to OIG physician con­
               sultants
               action.
                            to review the appropriateness of PRO
               PRO action was found to be inappropriate in 106 of
               the 133 cases reviewed by the OIG.

      Quality issues were coded when a PRO physician advisor had

      identif ied them in case documentation. It should be noted
      that the magnitude of the quality issues identified by the

      PROs varied from very minor to potentially very serious.
      However, the review teams did not attempt to              categorize
      the severity of the       issues.

      CATEGRIZE CASES                          QUALITY ISSUES
Page No. 11





       Premature Discharges


       The premature discharges discussed in this review                   were
       identif ied as such by the PROs in their reviews of a               sub­
       sequent readmission           to   the same   hospital.
       referred these cases to the regional offices because the
                                                                   The PROs
       patients:
               were not appropriately treated - (quality         issue);
               were appropr iately treated but released too early in
               the course of treatment - (quality      issue);
               were discharged       in a medically- unstable condi tion­
               (quality issue); or

               were discharged to be readmitted for further treat­
               ment when all treatment could have been rendered in
               the first admission. (Generally these cases did not
               invol ve quality   concerns.

       If a patient is released prematurely it is almost always
       at the physician      s direction.
                                     However, there may be exte­
       nuating circumstances.              In 2, 035 (70%) of the 2, 907
       premature discharges reviewed, it appeared the              physician
       was solely responsible for the discharge. In the
       remaining 30% of the cases the discharge was not directly
       attributable to the physician. For example:
               In 669 (23%) of the premature discharges, the patient
               was admitted for a diagnostic workup, released, and
               readmi tted   for surgery. These situations included
               cardiac catheter izations with readmissions for bypass
               surgery and biopsies with readmissions             for major
               surgery. The first situation is standard in many
               hospi tals : the bypass surgery is not scheduled until
               the results of the catheter i zation are known. The
               second is frequently due to the patient'       wish to
               settle    his/her
               Technically,
                                   affairs   before major surgery.
                               these patients are      still     in need of
               acute care and fall into the category of premature
               discharges.
       2)      In 89 (3%) of the premature        discharges, the patient
               was discharged
               family
                               at
                        s request.
                                          his or her own request or the
Page No. 12





       3)      In 27 (1%) of the cases, the patient left the
               hospi tal against medical advice.


       4)      In 87 (3%) of the cases, miscellaneous reasons
               accounted for the discharge.

       In a very few (12) instances, as annotated in the record
       reviewed, the physician discharged the patient because the
       physician had presumably been informed         by the   hospital
      administration that the resources expended on the patient
      were going ' to exceed the DRG payment, causing financial
      loss to the hospital.

      The PROs also identified cases in which the patient was
      discharged as no longer needing acute care but was unable
       to manage at home, necessitating a readmission. A
       possible explanation        for    these situations     is poor
       discharge planning. The patient should have been placed
       services However, based on the sometimes limited
       in a skilled nursing facility or referred for home health
       information available, it was diff icul t to determine 

       readmission was due to poor discharge planning or a prema­

       ture discharge.


       Inappropriate Transfers


      Generally, a transfer is necessitated. by the inability of
      a hospital to provide a necessary service or a procedure,
      or because a patient is in need of a specialized therapy,
      i. e.,
      of  a                            care.
            rehabilitative or psychiatric         The initiation
             transfer is based on an order by the attending
      physician who determines the        level and type of care the

      patient needs.


      Of the 491 transfer cases reviewed, the majority
      patients, 388 (79%), were transferred from one acute care
       hospi tal to another;    l7 (4%)   to a rehabilitation unit; 11
       (2%) to a psychiatric unit; and in 39 (8%) of the         cases
       the destination was not known.

       In  36 ( 7%) of the cases reviewed, patients were
        transferred" inappropriately to skilled nursing facili­
      ties or swing ' beds. By HCFA def ini tion,   patient is
      admi tted to these facilities, not       transferred.
                                                      However,
      for purposes of this review, these cases were considered
      transfer cases.
Page No. 13





       In 289 (59%) of        the
                            transfer cases reviewed, the PRO
                                                       existed.
       determined no valid reason for transfer           The
       remaining transfer cases represented situations where an

       inappropriate transfer did occur but could not be attri..
       buted to the physician or hospital. They are as follows:
               In 143 (29%) of the transfer cases reviewed, requests
               for transfer  were made by   the family.   In some of
               these cases, the patient had been admitted to a com­
               muni ty hospital that did not have the expertise to
               complete tests    and perform necessary procedures.
               Therefore, the patient was appropriately transferred
               to a  larger tertiary hospital which, in some rural
               areas, could be located a     great
                                                 distance from the
               patient'  home, family and friends. Once necessary
               tests and procedures were performed, the family or
               patient requested transfer back to       the
                                                         community
               hospital for convalescence, which could have taken
               place in the tertiary hospital.

       2 )	    In 51 (10%) of the cases, miscellaneous or unclear
               reasons accounted for the transfer.

       3 )	    In 6 (1%)   of the cases, the patient refused treatment
               at the receiving hospital and was sent back to the
               transferr ing hospital.
       4)      In two cases, documentation in the record indicated
               that a patient  was transferred from an acute care
               setting to a specialty unit because if he/she stayed
               in the acute hospital longer he/she would exceed the
                average length of stay , hospital resources expended
               might exceed DRG payment, and the hospital might
               suffer a financial loss.
Page No. 14





       PRO Disposition of Cases With Quality Issues

       PRO follow- up activities were generally categorized into
       educational contacts, intensif ied review, and referral to
       HCFA only. In 927 (43%) of the 2, 146 cases with identified
       quali ty    issues, no action other than referral to HCFA
       was taken. The remaining actions taken by the PROs when
       quality issues were identified are categorized as follows:
       1)      Educational Contacts

               In 743 (35%) of the cases, the PROs made educational

               contacts. The educational contacts ranged from
               sending the attending physician and hospital utili   za­
               tion review (UR) committee a copy of the referral to
               HCFA; to a telephone call to the attending physician
               by the PRO physician reviewer; to a carefully docu­
               mented  letter to the physician with a copy to the
               hospital UR committee detailing the PRO' s analysis of
               the case. Many more of the former two practices were
               noted in this   review. In very few instances was the
               phone call well documented, giving any details of the
               conversation, date or
               was made with
                                         time.URIn
                               the hospital
                                                     some cases contact
                                               committee instead of
               the physician, or in addition to the physician.
       2)      Further Review Determined No Problem Evident

               In 208 (10%)    of the cases it was determined that
               based on either additional information or review by a
               second PRO   physician, there was no quality issue
               involved.
       3)      Intensified Review

               In 64 (3%) of the cases reviewed the PROs instituted

               intensified review of the hospital or physician.


       4)      Sanction Development

               In no instance was a sanction development initiated by

               the PROs.

Page No. 15





       In 204 (9%) of the cases, actions such as referral to the

       PRO quality assurance committee; PRO development underway;

               locate record; etc., were recorded
       PRO unable to                                        in a
       miscellaneous     category.


               PRO DISPOSITION OF OASES

                 WIT QUALITY ISSUES

                    43%

                             31%




                                    10%          tOz



                   NO
                   ACTION
                            (DI NO WT
                            CO FU  1i1t,
                                                Mile
                   rAKE             ACTI
Page No. 16





       Quali ty   Issues

       Sixty percent of all cases reviewed involved quality con­
       cerns.   The quality issues ranged from very minor to
       gross instances of substandard care.    Of the 2, 146 cases
       identif ied as having quali ty concern , 2, 050 were prema­
       ture discharges, 42 were inappropriate transfers, and 54
       were diagnostic workups with a readmission for surgery.
       It should be noted that not all of the 2, 907 cases identif ied
       as premature discharges were classified as being quality
       issues. Generally
       missions for
                              the diagnostic workups with read­
                       surgery, while classified as premature
       discharges by HCFA def ini tion, did not involve substandard
       care. Prior to PPS this was acceptable hospital practice.
       In addition, quality of care was generally not a concern
       in transfer cases. However, some patients were trans­
       ferred in unstable condition or for inappropriate care,
       and some of the patients sent home to await surgery
       deteriorated in the interim.
       Substantive issues accounted for the vast majority of the
       cases reviewed. The types            of situations which were
       identif ied most often   included:


               of urinary retention, infection, discharge;
               condi tions not adequately treated, such as indications

                                                etc. , being
               acknowledged but not addressed prior to
       2)
               not
               secondary conditions uncovered by laboratory analyses
                     being acknowledged
               readmission;
                                                or addressed until

       3)      failure to perform routine laboratory tests,
               failure to document vi
               diagnoses.
                                       tal signs,
                                              leading to missed

       All of these cases had been identif ied as quality concerns
       by the PRO physician reviewers. When the OIG reviewers
       saw cases in which the situations above appeared to have
       placed the patient in great jeopardy, copies of the medical
       record were requested for further review by OIG physician
       consul tants.

       The OIG physicians reviewed medical records            for 133
       patients and, if  attached, PRO worksheets and opinions by
       nurse reviewers or PRO physician advisors. After analysis,
                                   . ..

Page No. 17





                                                    categories:
       the cases were then grouped into the following
       gross instances                    of  care;
                                   of poor quality  substantial
       instances; possible instances; no instance of: violation;
       and no opinion of              the case reviewed. PRO physicians
       comments on these cases were also categorized. The result

       is displayed on the following chart:





                01G MEDICAL                     REVI




                OF 133 CASES


                         SEVERITY O QUALITY /SS(/

                                   00/&




                              NO MJt;AUf PfIU                Al

                          ORN/fN         t'QY tlUI     Y!IJIIt?N& AND
                                     CWlE.1E                      FtAS
                                                                                      - ..,..-


Page No. 18





       In 73 (55%) of the 133 cases, PROs referred the cases to
       HCFA and no further action was                        taken.
                                             In 36 (27%) of the
       cases an educational contact was        In the remainingmade.
       cases a number of actions, such as referral to the PRO
       quality assurance committees, were           no instance     made. In
       was a sanction development initiated.
       OIG physicians recommend                         that
                                        sanction development be
       taken in 19 (14%) of the cases; additional review of more
       recent cases be done on specific hospitals and physicians
       identif ied in 31 (23%) of the cases; educational contacts
       be made in 30 (22%) of the cases; no additional action in
       27 (21%) of the cases; and rereview of the case by the PRO
       in 13 (10%)          of the         cases. In             the        remaining 13 (10%),
       various other actions are recommended.





         OIG MEDICAL REVIEW OF 133 CASES
                     AC71    1;A"EN   IY   Rl/




       f/D
                                                                                       /9
                                                                                       3/




        It)


               oM"
                     MlR1
                     M611
                                ""'$C,           "Ull    II'''
                                                                 1'1'1l1'        MI
                                                                              I .w
                                                                                NHD
Page No. 19





       In summary, medical records for 133 patients were reviewed
       by OIG physician consultants. It was their opinion that
       19 of   these cases  represented instances of   gross and
       flagrant violations. Fifty-  five represented substantial
       violations of acceptable medical practice, 21 represented
       possible violation, 37 cases had no quality issues on re-
       review, and in one case OIG physicians did not have suf­
       f icient information to render an opini on. Thirty- eight
       cases with identified quality issues where inappropriate
       actions were taken by the PROs have been returned to them

       for sanction development. The remaining cases are
       currently being reviewed by HCFA.
Page No. 20





       Mechanisms to Address             Cases          Premature    Discharge
       or Inappropriate Transfer
               The profiling of  physicians and providers necessary
               for the identification of abusive patterns is for the
               most part being done manually by the PROs.

               HCFA instructions pertaining              , to inappropriate
               discharges and transfers were well received by some

               PROs, but many expressed a need for further clarifi­

               cation.

               Sanction recommendations regarding these cases              are

               not being made         by the     PROs in    accordance wi
               available PRO authorities.


       Based on the findings of this inspection it appears that
       many PROs have not effectively used the authority or the
       process available to them to address instances of prema­
       ture discharge and inappropr        iate transfer.
                                                   This is due in
       part to their inability to identify patterns of abuse, the
       lack of  clar i ty     and
                              adequacy of HCFA instructions per­
       taining to      these cases, and an apparent reluctance to
       implement     corrective actions and carry out educational
       responsibilities when instances have been            identified.
       The prevention of        premature discharges and inappropriate
       transfers is part of the PROs ' ultimate goal of protecting
       the integrity of the system while safeguarding the quality
       of care provided through this system.
       The process enabling the             PROs to address          premature
       discharges and inappropriate transfers            involves:
               identif ication,      tracking and profiling of providers
               and physicians;
       2)      review and assessment              the   appropr iateness   and
               quali ty of   care;
               use   of corrective measures and communicative
               approaches designed to educate and instruct providers
               and physicians, as well as denial             of payment and
               sanction actions.
Page No. 21





       Identification and Profiling


       HCFA requires that all PROs have prof iling capabilities.
       Yet, very little profiling was being done of the providers
       and physicians identif ied in the premature discharges and
       inappropr iate transfers   reviewed in      this
                                                      inspection.
       Profiling that was occurring was for the most part being
       done manually. 

       A total of  1, 158 hospitals could be identif ied in this
       study, 392 of which had three or more cases identif ied as
       being premature discharges      or   inappropriate transfers.
       One hundred eighty- five had five or more cases identified,
       85 had eight or more instances and 53 hospitals had 10 or
       more instances  identified during the time   frames of this

              10    instances of premature discharges
       review. Those hospital providers identified as having more
       than
       inappropriate transfers will be brought to the PRO' s
                                                                and
                                                             atten­
       tion by HCFA   for additional    development to   determine if
       patterns of substandard care    exist.
       In order for the current system to work, it is essential

       that  individual instances of premature discharges and
       inappropriate transfers be identified and dialogue ini­
       tiated with the physicians and hospitals involved to pre­

       vent further occurrences.


       Under current policy the denial of the second stay should
       serve to deter the physician and/or hospital from manipu­
       lating or circumventing the system, but it will not faci-
       Ii tate the identif ication of patterns of poor quality
       care unless profiling of physicians and hospitals also
       occurs.
       Due to the heavy volume of cases reviewed by the PROs it
       is essential that prof iling of quality issues be auto­
       mated.  Not only would this provide for accurate tracking
       and analysis, it would also facilitate HCFA monitoring
       processes and PRO reporting responsibilities.

       HCFA Instructions


       The issuance of Transmittal 5 addressed in part situations

       where premature discharges and inappropriate transfers
       were occurring. HCFA provided guidance to the PROs on how
       to handle certain situations that were    in violation of
       Section l886(f)(2) of the Social Security Act. Generally,
Page No. 22





       the PROs were glad to receive the instructions contained
       in Transmittal 5.  However, when asked if the instructions
       were adequate and could feasibly be incorporated into the
       existing processes" they were       less unanimous in      their
       responses.
       Half of the PROs felt that the instructions were
       not realistic and need further clarification. The          focus
       of many of the PROs   ' concerns revolved   around the denial of
       the second, hospital stay rather than the first (which
       resul ted in the premature discharge). Also, they appeared
       to  be somewhat unclear regarding the hospital appeal
       rights should payment be denied and the effect of waiver
       of liability in these situations, although these issues
       are addressed in Transmittal

       Some PROs felt the criteria stipulated by HCFA which would
       indicate a pattern     of   circumventing PPS and necessitate
       initiation of a sanction development was not consistent
       wi th the current sanction procedures. PROs also felt that
       the trigger of a sanction development based on three
       inappropriate transfers or premature discharges in a
       quarter would unfairly penalize larger hospitals. Related
       concerns expressed by the PROs are the potential effect on
       their staff ing and budgets that would result from
       increased sanction activity.
       Not covered in these instructions are situations where a
       patient is readmitted to a different hospitaL In addi­
       tion, the instructions do not address premature discharges
       that do not result in another hospital stay, nor do they
       apply if the patient or family requests the discharge. Also
       not addressed are situations where proper discharge
       planning would have prevented the necessity for the second

       admission.
Page No. 23





       Areas that were not clear to the PROs         were:
               Effective date of the instruction.
               Whether the cr iter   ia triggering initiation
                                                          of a sanc­
               tion applies to an individual physician or the hospi­
               taL

               Whether to:

                      Recommend sanction based on

                           quality which does not meet   professionally
                           recogni zed     ' standards under    Section
                           l156(a) (2) of the Social Security Act; or

                           circumvention           the   system,    Section
                           l886(f) (2); or


                      Refer for termination of the provider agreement

                      under l866(B)(2).
               Whether the requirement to refer premature discharges

               and inappropriate transfers into HCFA               via the
               HCFA-5l6 is still in      effect.
       Use of Educational, Preventive, and Corrective Measures
       Prior to issuance of Transmittal 5 in July, 1985, the PROs
       were not authorized     to deny payment for premature
       discharges and inappropr iate transfers, pending a legal
       determination regarding the propr iety of this action.
       Al though PROs now have instructions regarding this
       authority, it is too early to determine if the financial
       loss to hospi tals resulting from the identif ication of
       such practices will serve as a deterrent in the future.
       However, PROs have always had the responsibility to docu­
       ment patterns of substandard care and initiate corrective
       actions.
       Wi th the issuance of Transmittal 5 the PROs have received
       instructions and been given criteria that if met should
       tr igger a sanction development based on circumvention of
       PPS.
       A number of PROs expressed the opinion that if they were

       adequately performing their educational and preventive
Page No. 24





       role, puni ti ve actions would not have to be taken
       frequently. Indeed the current process encourages an
       early warning to a physician or hospital to prevent the
       necessi ty for drastic action later   on.
       However, as mentioned earlier, the PROs are not consistent
       in how often or to what extent educational contacts are
       made with     the hospital physician community when poor
       quality care has been   identified.
       Documentation of educational contacts, whether phone calls
       or letters, could be found in fewer than half of the cases
                     the PROs as having ihdications of poor
       quality. Inbysome
       identif ied
                         instances, the OIG physician reviewer
       determined that, on available evidence, the care was
       gross and flagrant violation, yet only a referral to the
       HCFA Regional Office had been made.

       In instances where a copy of the letter sent to the physi­
       cian was available, it frequently did       not document the
       nature of the violation or the PRO' s specific concerns.

       It is essential to the PRO monitoring process to
       document that educational contacts of a specific nature
       have been made with physicians and hospitals when quality
       issues have been identified. It is also essential to the
       development of a sanction case should the necessity   arise.
       There was no uniformity or       consistency in   the cases
       reviewed regarding: when an educational contact was made;

       the content of the notif ication; with whom the contact was
       made; or documentation of the contact.

       The following is a diagram of the process to       identify,
       track, and prevent the occurrence of premature discharges
       and inappropriate transfers. Aster isks are used to iden­
       tify weaknesses in this process that have been discussed
       throughout this   report.  Correction of these weaknesses
       and aggressive use of this process by the PROs should pre­
       vent occurrences of premature discharges and inappropriate
       transfers in the future.
Page   No.




             000

Page No. 26





VI.    Recommendations
               HCFA should:


                   . Continue
                    premature
                                 its
                                   reporting requirements regarding
                               discharges  and inappropriate trans­
                    fers.
                    should be clarified   and a. uniform
                                                          referrals
                             Instructions regarding PROformat   for
                    referrals developed. Uniform PRO referral of
                                           identify the magnitude

                    these cases will help to
                    of this problem and assess the effectiveness of

                    the policies contained in Transmittal 


                    Issue clarification of Transmittal     imme-
                                              ic PRO concerns.

                    diately, in response to specif

                    Expand the PROMPTS review to include monitor        ing
                    of      sample of     referral cases, actions,
                    tif ication through PRO corrective
                                                           from iden­
                                                                   to
                    ensure the process for        handling these cases is
                    being correctly implemented.
                    Reassess, through PROMPTS, PRO operational proce­

                    dures and systems for identifying, profiling and

                    tracking instances of poor quality care attribu­

                    table to physicians  and hospital providers.
                    PROs should
                    identifying
                                have the
                                patterns   of substandard care.
                                          automated capability

                                         problems should be noted

                    Deficiencies or system
                    and corrective actions       taken.
                    Provide direction to         the PROs   regarding   the
                    issuance, content, and documentation of educa­
                    tional contacts made prior to sanction develop­
                    ment.
                     Initiate studies  to determine the extent
                                discharge planning is resulting
                     which poor
                     hospi tal   readmissions.
                The OIG concurs with HCFA that PROemphasis
                                                   scopes of work
                should be revised to  place more
                                                     care.
                                                           on PRO
                responsibili ty in monitoring quality of

                The Department     should continue to encourage passage
                of  Senate Bill 1623, incorporated in the Senate
                Reconciliation package, which would authorize PROs to
Page No. 27





               deny payment for   identif ied instances   of substandard
               care, of a substantive nature, rendered to Medicare
               beneficiaries.
                                        &.



                                                                                    Health Care
                                             HUMAN SERVICES	                        Financing Administration
           DEPARTMENT Of HEALTH


Jr"..JO
                         198
                                                                                    Memorandum
   Date
               '5/5
           Henry R. Desmarais, M.
   From	   Acting Administrator

           Health Care Financing Administration


    Subject OIG Draft Report-Inappropriate     Discharges and Transfers (OAI-86-o050)


           The Inspector General

           Office of the Secretary


           We have reviewed the report on inappropriate discharges and transfers under the
           Medicare Prospective Payment System. As recognized in the report, HCF A has
           already taken a number of actions to correct the problems referred to in the study
           and is continuing to move aggressively in identifying and resolving quality of care
           problems.
           HCF A  fully expects and requires Peer Review Organizations (PROs) to investigate
           quickly and thoroughly all cases where the quality of health care provided to
           Medicare beneficiaries does not meet professionally recognized standards of care.
           HCF A firmly believes this to be a basic purpose of peer review, and we intend to
           make certain that PRO performance in this area is in accord with our expectations
           through intensive monitoring by the regional offices (ROs).
           The OIG study is of assistance to HCF A by identifying areas where further
           improvement by  PROs and ROs in resolving quality of care issues can be attained
           and we appreciate the time and resources the OIG expended in preparing this report.
           Some general comments and observations         about the report   may be helpful in any
            future studies:

               The study covered the period from October 1, 1983 through May 31, 1985. The
               sanction regulations became effective May 17 , 1985 and Transmittal 85-5 was
               effective in July 85.


               As noted in the report, 30% of the cases classified as premature discharges were
               not directly attributable to physicians but were reimbursement-related problems.


               Review of the records provided to HCF A revealed only one case where the DRG
               payment was a factor in the premature discharge. HCF A needs to know the
               identity of the others, if any, referred to on page 12 so we can discuss them with
               the PRO, physicians and hospitals and take corrective action.
               Forty-two percent (42%) of the cases  classified as inappropriate transfers
               page 13 are not inappropriate by OIG definition , i. e., they do not question the
               quality of care provided (page      5).




                                                                               us GOVERNME TPR!NTI   I:C'ICE ' ge2-   atl':' 311:2
Page 2 - The Inspector General

                                                        used in the report. 'For
o It is difficult to follow the arithmetic calculationshow
     example, we have been unable to determine exactly      many serious quality
     problems the OIG medical consultants believe were missed by PROs.
     Percentages are applied to various baseline numbers, percentages are taken
     percentages, and numbers are not consistently used.   HCF A recommends                  that
     future reports be uniform in the use of numbers and percentages.

We are taking the following actions in regard to the specifc recommendations made
in the report:
OIG Recom menda tion
Continue reporting requirements regarding premature discharges and inappropriate
transfers. Instructions regarding PRO referrals should be clarifed and a uniform
format for referrals developed. Uniform PRO referral of these cases wil help to
identify the magnitude of this problem and assess the effectiveness of the policies
contained in Transmittal 5.
H CF ACorn ments
We agree. The PRO    wil be required to refer to the RO only those cases that cannot
                                        Trans mittals 85-5 and 85-6 require PROs to
be resolved under existing instructions. 


take action on premature discharges and transfers in most instances. Only cases for
which there is no existing policy should be sent to the RO. Concurrently, we wil
require that the       report to the RO, on a monthly basis, the number of cases
                               PRO

identified as premature discharges or inappropriate transfers. The RO wil also be
responsible for responding promptly to the                 PRO on the referred cases. In addition,
ROs wil verify the accuracy of the report on premature discharges and transfers
and wil insure that PROs take appropriate action on these cases.
OIG Recommendation
Issue clarification of Transmittal 5 immediately, in response to specifc
                                                                                              PRO
concerns.
HCF A Comments
We agree. Clarifications                     wil be released shortly and wil resolve  the concerns
identified by ROs and PROs. In addition,                  HCF A, in conjunction with the Office of
General Counsel, is in the process of rewriting 85-5 both to expand its application
and to clarify its content.
OIG Recommendation
Expand the PROMPTS review to include monitoring of a sample of referral cases,
from identification through PRO corrective actions, to ensure the process for
handling these cases is being correctly implemented.
 H CF ACorn ments
 ROs are currently required to review a sample of cases as part of PROMPTS. This
 activity wil be modified to verify that cases are appropriately handled.
 OIG Recommendation
 Reassess, through PROMPTS , PRO operational procedures and systems for
 identifying, profilng and tracking                 instances of poor quality care attributable to
 physicians and hospital providers.  PROs should have the automated capabilty of
 identifying patterns of substandard care. Deficiencies or system problems should be
 noted and corrective actions taken.
 ~~~



Page 3 - The Inspector General

HCF A Comments
We agree. "Profilng" to                           problems is a prerequisite to
                               identify and focus on
effective peer review. We wil be providing additional technical assistance in this
area and aggressively enforcing requirements that , PROs effectively profie
information optained through review to identify inappropriate patterns of care.

OIG Recommendation
Develop guidelines and model letters regarding issuance,                  content    and
documentation of educational contacts made prior to sanction development.
HCF A Comments
We do not believe it is appropriate for us to put forth model letters in this area, and
we have been informed by the OIG that they did not mean to require this. OIG
agreed that the process and methods to be used in educational contacts is a local
responsibilty. We will, however, monitor this activity by reviewing documentation
to assure that the actions taken are effective in correcting the problem.
OIG Recommendation
Initiate studies to determine the extent to which poor discharge planning is resulting
in hospital readmissions. .
HCFA Comments
We are currently     funding   studies by six PROs to identify the extent of the
premature discharge       problem and to     identify the most effective review
methodologies for dealing with it.
OIG Recommendation
The OIG concurs with HCF A that PRO scopes of work should be revised to place
more emphasis on PRO responsibilty in monitoring quality of care.
HCF A Comments
The scope has been revised to focus        on quality of care   issues through the use of
generic screens and more focused review.

OIG Recommendation
The Department should continue to encourage passage                of Senate Bil 1623
incorporated in the Senate Reconcilation package, which would authorize PROs to
deny payment for identified instances of substandard care, of a substantive nature,
rendered to Medicare beneficiaries.

HCFA Comments
We concur.

We would like to offer   the following   comments in regard to the other findings in this
report.

Qua ty issues ranging from very. minor to gross and flgrant were identified by the
PROs in 60 percent of the 3, 549 cases. PRO disposition ranged from intensifed
review of identified hospitals and physicians to no action being taken at all. In 43
percent of the cases with identified quality issues the only apparent action taken by
the PRO was referral to HCF A.
Page 4 - The Inspector General




taken.
Response
We agree with this finding. The ROs are currently aggressively monitoring PRO
activity in quality of care cases to assure that appropriate corrective action is

Finding
Medical records involving 133 patients were referred to OIG physician consultants
for review. Nineteen were classified by OIG consultants as exhibiting gross and
flagrant instances of substandard care. PROs took no corrective action, other than
referral to H CF A, on 12 of these 19 cases. In the opinion of the OIG medical
consultants, inappropriate actions were taken on 106 of the 133 cases. These cases
have been or wil be returned to the PROs for various recommended actions.
Response
While we cannot ascertain from the report how many cases the PRO did not handle
appropriately, we have completed     medical record review on the 77 cases made
available to us by the   OIG. These cases did reflect apparent   inadequate PRO
                                            to the ROs for control and return to
intervention. These cases are being transferred
the PRO. The ROs wiU be responsible for assuring that the PRO develops them and
takes necessary corrective action.
Finding
PROs did have the authority to take action on the quality issues identified in this
study. It appears that many PROs have not effectively used the authorities or the
processes available to address instances of poor quality care associated with
premature discharges and inappropriate transfers.
Response
We agree that PROs had the authority                                      identified
                                       to take action on any quality issues
by them or brought to their attention through the OIG, the fiscal     intermediary,
HCF A or any other source. ROs, during onsite visits and in other communications
with PROs, are monitoring actions taken by PROs in resolving cases of unacceptable
quality of care in any category, i. e., surgery, drug, premature discharge,
unnecessary admissions, inappropriate transfers, etc. PROs found out of compliance
with these requirements wil be subject to contractual enforcement actions.
Finding
During OIG site visits conducted in September and December 1985, problems were
noted with the PROs' accumulation of data pertaining to the quality of care

rendered by physicians and hospitals. This data is necessary (or the identification of
abusive patterns and subsequent corrective action.
Response
H CF A is preparingan instruction that wil futher define the PROs' responsibilty for
maintaining profies to be used in analyzing quality of care problems         and in
identifying abberant providers or physicians. Corrective action wil be taken against
any PROs unable or unwiling to monitor quality of care through profie analysis.
HCF A has emphasized to the ROs that aggressive monitoring and timely and
complete profiing is required of all PROs.
Page 5 - The Inspector General

Finding
It should be noted that since the initiation of this inspection increased activity by
HCF A and the   PROs in this area has occurred. HCF A has issued Transmittal 6
(relating to sanction procedures) and has initiated focussed reviews in this area.
PROs are increasing sanction activities against physicians/providers demonstrating
abusive patterns of practice.
Response
Current reports show greatly increased        activity   in the identification and
development of cases by the PROs that may be violations of obligations, and in the
issuance of first notices where a violation has been determined. In those PROs
where activity remains minimal, we are directing the ROs to review the PRO'
application of Transmittals 85-5 and 85-6 and to take immediate corrective acton if
those instructions are not being followed.
